U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Eddie Lamont Lipscomb v. United States of America,
S.Ct. No. 20-7984

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 7, 2021,
and placed on the docket on May 11, 2021. The government’s response is due on June 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7984
LIPSCOMB, EDDIE LAMONT
USA

JAMES MATTHEW WRIGHT
OFFICE OF THE FEDERAL PUBLIC DEFENDER
500 S. TAYLOR
SUITE 110
AMARILLO, TX 79109
806-324-2370
MATTHEW_WRIGHT@FD.ORG

